LEGAL PRINTERS,

LLC

202-747-2400
202-449-9565 Fax
LegalPrinters.com

5614 Connecticut Avenue, NW #307
Washington, DC 20015

August 30, 2019
Clerk
Supreme Court of the United States
1 First Street, NE
Washington, D.C. 20002
RE:

ROXANNE TORRES V. JANICE MADRID AND RICHARD WILLIAMSON

Dear Sir or Madam:
As a member of the Supreme Court Bar I hereby certify that at the request of
counsel for the Petitioner, on August 30, 2019, I caused service to be made pursuant
to Rule 29 on the following counsel for the Respondents:
RESPONDENTS:
Christina L. G. Brennan
James P. Sullivan
Brennan & Sullivan, P.A.
128 East DeVargas
Santa Fe, NM 87501
(505) 995-8514
Christina@brennsull.com
Jamie@brennsull.com
This service was effected by depositing three copies of a Petition for a Writ of
Certiorari in an official “first class mail” receptacle of the United States Post Office as
well as by transmitting digital copies via electronic mail.
Sincerely,

Arthur D. Chotin, Esq.
Principal

